I N T H E S U P R E M E C O U R T O F T H E U NI T E D S T A T E S

Z U P NI K, J O E L
P etiti o n er
vs.

N o:

2 1- 0 1 7 1

US A
W AI V E R
T h e G o v er n m e nt h er e b y w ai v es its ri g ht t o fil e a r es p o ns e t o t h e p etiti o n i n t his c as e,
u nl ess r e q u est e d t o d o s o b y t h e C o urt.

B RI A N H. F L E T C H E R
A cti n g S oli cit or G e n er al
C o u ns el of R e c or d
A u g ust 1 6, 2 0 2 1
c c:
R O G E R E. Z U C K E R M A N
Z U C KE R M A N SP AE DE R LLP
1 8 0 0 M S T R E E T, N. W.
S UI T E 1 0 0 0
W A S HI N G T O N , D C 2 0 0 3 6
J A C O B M OS HE R OT H
J O NES D A Y
5 1 L O UI SI A N A A V E N U E, N W
W A S HI N G T O N, D C 2 0 0 0 1

